No. 19-153
In the

Supreme Court of the United States
YASMEEN DANIEL, INDIVIDUALLY
AND AS SPECIAL ADMINISTRATOR OF THE
ESTATE OF ZINA DANIEL HAUGHTON,
Petitioner,
v.
ARMSLIST, LLC, et al.,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Wisconsin

BRIEF OF AMICI CURIAE NATIONAL
COALITION AGAINST DOMESTIC
VIOLENCE, ET AL. IN SUPPORT OF
PETITION FOR CERTIORARI
A nthony J. Dreyer
Counsel of Record
Hannah Marek
Shelli Gimelstein
Skadden, A rps, Slate,
Meagher & Flom LLP
Four Times Square
New York, New York 10036
(212) 735-3000
anthony.dreyer@skadden.com

September 3, 2019
290906

Counsel for Amici Curiae
National Coalition Against
Domestic Violence, et al.

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

THE WISCONSIN SUPREME COURT’S
TEXTUAL INTERPRETATION OF THE
CDA PUTS VICTIMS AT GREATER
RISK TO BE KILLED . . . . . . . . . . . . . . . . . . . . . 5
A. Ci rcu mvent i ng Wisconsi n Law s
T hat P revent A busers From
Accessing Firearms Usurps State
Legislative Authority and Endangers
Victims’ Lives . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Armslist Was Designed to Make It
Easy for Abusers to Obtain Firearms,
With Deadly Consequences  . . . . . . . . . . . . . 8

II. BECAUSE ARMSLIST’S CONDUCT
IS AT ISSUE, THE CDA DOES NOT
SHIELD IT FROM LIABILITY AND
DOES NOT PREEMPT THE STATE’S
ENFORCEMENT OF ITS GUN LAWS . . . . . 10

ii
Table of Contents
Page
A. The CDA Does Not Provide Safe
Harbor for an ICS’s Own Conduct . . . . . . . 10
B. An Overly Broad Interpretation of
the CDA Violates the Presumption
Against Federal Preemption  . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iii
TABLE OF CITED AUTHORITIES
Page
CASES:
Altria Grp., Inc. v. Good,
555 U.S. 70 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Barnes v. Yahoo!, Inc.,
570 F.3d 1096 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . 11
City of Chicago v. StubHub!, Inc.,
624 F.3d 363 (7th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 11
Doe v. Internet Brands, Inc.,
824 F.3d 846 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 11
Fair Hous. Council of San Fernando Valley v.
Roommates.com, LLC,
521 F.3d 1157 (9th Cir. 2008) . . . . . . . . . . . . . 11, 12, 13
Homeaway.com, Inc. v. City of Santa Monica,
918 F.3d 676 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 14
J.S. v. Village Voice Media Holdings, L.L.C.,
359 P.3d 714 (Wash. 2015) . . . . . . . . . . . . . . . . . . . . . .12
Medtronic, Inc. v. Lohr,
518 U.S. 470 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . 5, 14
STATUTES AND OTHER AUTHORITIES:
47 U.S.C. § 230  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 12
47 U.S.C. § 230(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
Cited Authorities
Page
47 U.S.C. § 230(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 11
47 U.S.C. § 230(e)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
47 U.S.C. § 560  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
47 U.S.C. § 561  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
2014 Wis. Sess. Laws 1284  . . . . . . . . . . . . . . . . . . . . . . . . 7
Alison Dirr, Five years apart, Armslist was source
of guns in high-profile domestic violence deaths,
Post-Crescent (Sept. 19, 2018, 10:07 AM)  . . . . . . . . . 9
Alissa Scheller, At Least a Third of All Women
Murdered in the U.S. Are Killed by Male Partners,
Huffington Post (Oct. 9, 2014, 1:11 PM) . . . . . . . . . . . 2
April M. Zeoli, Non-Fatal Firearm Uses in
Domestic Violence, The Battered Women’s
Justice Project (2017) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Arkadi Gerney & Chelsea Parsons, Women Under
the Gun: How Gun Violence Affects Women and
4 Policy Solutions to Better Protect Them 1,
Center for American Progress . . . . . . . . . . . . . . . . . . 2
Ashley Luthern, How did a gun sold in Wisconsin end
up being used to kill a Chicago cop?, Milwaukee
Journal Sentinel (Mar. 1, 2018, 4:37 PM) . . . . . . . . . . 9

v
Cited Authorities
Page
End Domestic Abuse Wis., Wisconsin Domestic
Violence Homicide Report 2017 (2018)  . . . . . . . . . . . 6
Gun Violence in America, Everytown Research . . . . . 3
Jacquelyn C. Campbell et al., Risk Factors
for Femicide in Abusive Relationships:
Results From a Multisite Case Control Study,
93 Am. J. Pub. Health 1089 (2003)  . . . . . . . . . . . . . . . 1
Joakim Petersson et al., Risk Factors for Intimate
Partner Violence: A Comparison of Antisocial
and Family-Only Perpetrators, 34(2) Journal of
Interpersonal Violence 1-21 (2016) . . . . . . . . . . . . . . . 7
Mansur Gidfar, Don’t Believe in the War on Women?
Would a Body Count Change Your Mind,
Upworthy (June 19, 2012) . . . . . . . . . . . . . . . . . . . . . . . 2
Michael B. Siegel & Emily F. Rothman, Firearm
Ownership and the Murder of Women in
the United States: Evidence That the StateLevel Firearm Ownership Rate Is Associated
w ith th e No nstran ger Femici d e Rat e,
3 Violence & Gender 20 (2016) . . . . . . . . . . . . . . . . . . . 2
Violence Policy Ctr., When Men Murder Women: An
Analysis of 2014 Homicide Data 3, 21 (2016) . . . . . . 3

Wis. Stat. § 813.12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Wis. Stat. § 941.29(1m)(f)  . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTEREST OF AMICI CURIAE1
The Amici Curiae include 27 organizations that share
a common goal to prevent domestic violence, the danger
of which is exacerbated by abusers’ access to guns. 2
Guns radically increase the risk that domestic
violence will turn deadly. In the United States—where 20
people are physically abused each minute by an intimate
partner3 —an abuser’s access to firearms increases the
risk that abuse will escalate to homicide at least five-fold.4
1. No one other than the undersigned authored this brief
in whole or in part, and no counsel or party other than the
undersigned made a monetary contribution to fund or intended
to fund the preparation or submission of this brief. Both parties
have consented to the filing of this brief.
2. The Amici Curiae comprise the following 27 organizations:
National Coalition Against Domestic Violence, End Domestic
Abuse Wisconsin, Advocates of Ozaukee, Battered Women’s
Justice Project, Beloit Domestic Violence Survivor Center,
Brighter Tomorrows, Community Referral Agency, Domestic
Abuse Intervention Services, Family Advocates, Inc., Family
Support Center, Futures Without Violence, Harbor House, Haven,
Inc., HELP of Door County, UMOS Latina Resource Center, Legal
Momentum, Milwaukee Center for Children and Youth, National
Domestic Violence Hotline, New Beginnings APFV, New Day
Advocacy Center, PAVE, Sojourner Family Peace Center, The
Bridge to Hope, The Rainbow House, The Women’s Community,
Inc., UNIDOS, and Violence Intervention Project.
3. Nat’l Coalition Against Domestic Violence, National
Statistics Domestic Violence Fact Sheet, https://www.speakcdn.
com/assets/2497/domestic_violence2.pdf (last visited Aug. 29,
2019).
4. Jacquelyn C. Campbell et al., Risk Factors for Femicide
in Abusive Relationships: Results From a Multisite Case Control

2
Women are most at risk: 85% of domestic abuse victims
are women, 5 and at least one-third of all women murdered
are killed by intimate partners.6 The number of women
murdered in domestic homicides is staggering. Between
2001 and 2012, 11,766 American women were killed by
male partners (current or ex)—nearly double the number
of American troops killed in Afghanistan and Iraq in
those years.7 Fifty-five percent of those women were shot
to death. 8 Between 2012 and 2016 alone, on average, 600
Study, 93 Am. J. Pub. Health 1089, 1092 (2003); see also Michael B.
Siegel & Emily F. Rothman, Firearm Ownership and the Murder
of Women in the United States: Evidence That the State-Level
Firearm Ownership Rate Is Associated with the Nonstranger
Femicide Rate, 3 Violence & Gender 20 (2016).
5. Alissa Scheller, At Least a Third of All Women Murdered
in the U.S. Are Killed by Male Partners, Huffington Post (Oct. 9,
2014, 1:11 PM), http://www.huffingtonpost.com/2014/10/09/menkilling-women-domesti_n_5927140.html (citing the Violence Policy
Center, the Bureau of Justice Statistics, the National Institute of
Justice, and the Center for American Progress).
6. National Statistics Domestic Violence Fact Sheet, supra.
7. Mansur Gidfar, Don’t Believe in the War on Women?
Would a Body Count Change Your Mind, Upworthy (June 19,
2012), http://www.upworthy.com/dont-believe-in-the-war-onwomen-would-a-body-count-change-your-mind (citing the Federal
Bureau of Investigation, Domestic Violence Statistics).
8. Arkadi Gerney & Chelsea Parsons, Women Under the
Gun: How Gun Violence Affects Women and 4 Policy Solutions
to Better Protect Them 1, Center for American Progress,
https://cdn.americanprogress.org/wp-content/uploads/2014/06/
GunsDomesticViolencereport.pdf (last updated June 2014) (citing
the Federal Bureau of Investigation, Supplemental Homicide Data
(2001-2012)).

3
women were shot to death each year by intimate partners.9
In 2014, over half (63%) of the 870 women murdered by
their partners or ex-partners were killed by a firearm,
and 239 women were shot to death by a partner during the
course of an argument.10 Indeed, in that year, women were
more likely to be killed by an intimate partner wielding
a firearm than by any other means of homicide.11 In light
of these horrific statistics, the State of Wisconsin enacted
multiple, reasonable laws to address domestic abusers’
access to firearms and to save countless innocent lives,
including more efficient background checks and firearm
surrender procedures for domestic abusers.
Protecting citizens’ health and safety falls squarely
within the police powers of the State. Under the U.S.
Constitution, the federal government cannot and should
not interfere with states’ authority in this regulatory
domain. Recognizing these federalism principles, the
Communications Decency Act carves out an exception
to its general preemption in situations where an
“interactive computer service” (“ICS”) intentionally
facilitates the circumvention or violation of state law.
Yet the enforceability of Wisconsin’s important state
protections against gun violence by domestic abusers is
now cast into doubt by the Wisconsin Supreme Court’s
ruling, which interprets and allows defendants to use the
Communications Decency Act in ways never intended.
9. Gun Violence in America, Everytown Research, https://
everytownresearch.org/gun-violence-america/ (last updated April
4, 2019).
10. Violence Policy Ctr., When Men Murder Women: An
Analysis of 2014 Homicide Data 3, 21 (2016), http://www.vpc.org/
studies/wmmw2016.pdf.
11. See id. at 21.

4
Committed to protecting victims of domestic violence, the
Amici Curiae have a direct interest in the enforceability
of Wisconsin law, and thus the outcome of this action.
We respectfully submit this brief in support of Yasmeen
Daniel (“Daniel”)’s petition for certiorari.
SUMMARY OF ARGUMENT
As alleged in Daniel’s complaint12 , Armslist.com
(“Armslist”) knowingly enables dangerous people banned
from purchasing guns to obtain guns anonymously on
the Internet. (Compl. ¶¶ 9, 54.) And it cannot be disputed
that Armslist’s operation has led to multiple murders of
domestic violence victims by their abusers, including the
murder-suicide in this case that killed four people and
injured four others. (Compl. ¶ 7.) To avoid responsibility,
Armslist ironically seeks to hide behind the “Good
Samaritan” safe harbor, 47 U.S.C. § 230(c)(1), in the
Communications Decency Act of 1996 (the “CDA”), 47
U.S.C. §§ 230, 560-561, which limits the liability of an ICS
for content posted by third parties. That Armslist could
avail itself of a “Good Samaritan” safe harbor and thus
avoid the laws of the State of Wisconsin is incongruous
with the allegations of the complaint and legally untenable.
The CDA’s liability limitation applies narrowly to an
ICS’s publication of third-party content only. The CDA’s
safe harbor does not protect an ICS for its own intentional
conduct designed to enable illegal user activity, such as the
illegal gun purchase at issue in this lawsuit—a purchase
that plainly violated both federal and Wisconsin state law.
As the Wisconsin Court of Appeals correctly observed, the
12. The factual allegations in Daniel’s well-pleaded complaint
are to be taken as true at the pleading stage.

5
presumption against preemption of state laws requires a
narrow interpretation of the CDA that allows Wisconsin
to enforce its own gun laws. On appeal, the Wisconsin
Supreme Court reversed, disregarding the presumption
against federal preemption of state law and finding that the
CDA could preclude Armslist’s liability for its conduct and
the design and content of the website it created. Because
this ruling is inconsistent with the purpose of the CDA and
would enable domestic abusers and others to violate legal
bans against their possession of firearms, in contravention of
federal and Wisconsin law, Amici Curiae respectfully urge
this Court to grant Yasmeen Daniel’s petition for certiorari.
ARGUMENT
I.

T H E W I S C O N S I N S U PR E M E C OU R T ’ S
TEXTUAL INTERPRETATION OF THE CDA
PUTS VICTIMS AT GREATER RISK TO BE
KILLED
A.

Circumventing Wisconsin Laws That Prevent
Abusers From Accessing Firearms Usurps
State Legislative Authority and Endangers
Victims’ Lives

It is critical for the State of Wisconsin to be able to
enforce its fundamental state policy to protect victims of
domestic violence by prohibiting domestic abusers’ access
to guns. Allowing Armslist to flout state laws requiring
basic background checks for gun purchasers under the
illusory shield of federal preemption threatens not only
the basic principles of federalism, but the lives of abuse
victims.13
13. Medtronic, Inc. v. Lohr, 518 U.S. 470, 485, 494 (1996)
(noting that the “‘presumption against the pre-emption of state

6
Wisconsin enacted its laws in response to devastating
accounts and statistics regarding domestic abusers’
access to firearms that has led to the murder of
numerous victims in Wisconsin. The Azana Spa shooting
at issue in this case, sadly, is just one of many similar,
deadly events that occur in Wisconsin every year.
In the State of Wisconsin, there were over 100 victims
of domestic violence-related homicides in 2016-2017.14
Firearms are the most common means of perpetrating
domestic violence homicides.15 Indeed, domestic violence
assaults involving a gun are 12 times more likely to result
in death than those without a firearm.16 A staggering
seventy percent of the domestic violence homicides in
Wisconsin in 2017 resulted from gun use, and in at least
11 of those instances, the shooter was legally prohibited
from possessing a firearm.17
Victims live in constant fear of their abusers getting
access to a gun. Zina Haughton testified in support of
her request for a restraining order that her husband’s
threats to her life “terrorize my every waking moment.”
(Compl. ¶ 3.) Many petitioners file TROs after separating
police power regulations’ . . . is consistent with both federalism
concerns and the historic primacy of state regulation of matters
of health and safety.”).
14. End Domestic Abuse Wis., Wisconsin Domestic Violence
Homicide Report 2017, at 5 (2018), https://www.endabusewi.org/
wp-content/uploads/2018/11/2017_Wisconsin_Domestic_Violence_
Homicide_Report_FinalTjySpW.pdf.
15. Id. at 10.
16. Id.
17. Id. at 6.

7
from their abuser or as a first step of separation, and
are at greatest risk of increased violence or homicide at
this point, making the enforcement of firearms bans for
abusers especially important to their safety.18
Recognizing the danger of guns in the hands of
abusers, Wisconsin has passed multiple laws to protect
victims and their families. First, Wisconsin law prohibits
possession of a firearm by individuals subject to a
domestic abuse restraining order under section 813.12
of the Wisconsin Statutes. Wis. Stat. § 941.29(1m)(f).
More recently, Wisconsin legislators and Governor Scott
Walker reinforced the importance of preventing abusers’
access to guns in the Stopping Abuse Fatalities through
Enforcement Act, or “SAFE Act.” Passed with bipartisan
support, the SAFE Act established procedures to ensure
and verify that abusers surrender their firearms. Stopping
Abuse Fatalities through Enforcement Act, 2014 Wis. Sess.
Laws 1284. In light of the “heightened risk that firearms
pose to domestic violence victims,”19 the law was meant to
“prevent domestic violence homicides.” 20 Expressing its
support for the SAFE Act, the Milwaukee Commission
on Domestic Violence and Sexual Assault noted the
importance of strengthening the legal procedures to
18. Joakim Petersson et al., Risk Factors for Intimate
Partner Violence: A Comparison of Antisocial and Family-Only
Perpetrators, 34(2) Journal of Interpersonal Violence 1-21 (2016).
19. Letter from Jon Richards, Wis. State Representative, to
Members, Assembly Comm. on Pub. Safety and Homeland Sec.,
in Support of Assembly Bill 464 (Nov. 19, 2013).
20. Testimony of Garey Bies, Wis. State Representative, to
Members, Assembly Comm. on Pub. Safety and Homeland Sec., on
Assembly Bill 464 – Relinquishing Firearms in Cases Involving
a Restraining Order (Nov. 19, 2013).

8
ensure that abusers surrender their guns, particularly
given that, from 2000-2013, “at least 53 Wisconsinites
. . . lost their lives at the hands of a perpetrator who was
legally prohibited from possessing a firearm.” 21
Wisconsin reinforced the importance of its systems
to prevent guns from finding their way into the hands
of abusers, including efficient background checks, with
recent legislation in 2015. Under the new law, the waiting
period before a purchaser can access a gun is simply
however long it takes to pass a background check. This
law recognizes that sustaining robust gun rights is closely
linked to ensuring gun safety. It seeks to ensure that guns
are accessible to those who lawfully may obtain them,
while at the same time are inaccessible to those who may
not. To achieve both of these goals, the state must be able
to enforce the law against those who hamper this critical
element of state policy by facilitating illegal gun sales to
domestic abusers and others banned from owning guns.
B. Armslist Was Designed to Make It Easy for
Abusers to Obtain Firearms, With Deadly
Consequences
Armslist’s alleged conduct intentionally allows
abusers to have easy access to firearms, which puts
victims of domestic violence in lethal danger. By
enabling unregistered users to engage in “private” sales
transactions, Armslist designed its website with the goal
21. Letter from Erin M. Perkins, Coordinator, Milwaukee
Comm’n on Domestic Violence and Sexual Assault, to André
Jacque, Wis. State Representative, and Members, Assembly
Comm. on Pub. Safety and Homeland Sec. 1 (Nov. 18, 2013).

9
of circumventing mandatory background checks and other
state measures concerning firearm sales and protection
of abuse victims.
Tragically, this strategy is working. Armslist’s alleged
negligence in the Haughton case is not an isolated incident.
Under strikingly similar circumstances in 2017, Sara
Schmidt was killed by her abusive husband who illegally
purchased a firearm through Armslist. 22 The public rarely
learns about the transaction history of firearms used in
homicides, since “detailed trace information only comes
out in public during high-profile cases when investigators
track down a straw-purchaser or other violator and
prosecutors file charges.” 23 Therefore, there are likely
even more homicides facilitated by Armslist beyond the
statistics known to the public.
Shooting victims are not the only ones who suffer
when abusers illegally access guns in violation of state
law. According to Sojourner Family Peace Center, a
Milwaukee-based nonprofit serving domestic violence
survivors, “when a highly-publicized domestic violence
homicide like the Azana Spa shooting happens, our
advocates hear increased reluctance from survivors about
going forward in filing for restraining orders, for fear that
22. Alison Dirr, Five years apart, Armslist was source of
guns in high-profile domestic violence deaths, Post-Crescent
(Sept. 19, 2018, 10:07 AM), https://www.postcrescent.com/story/
news/crime/2018/09/19/guns-harrison-murder-suicide-azanashooting-found-same-website/1224081002/.
23. Ashley Luthern, How did a gun sold in Wisconsin end
up being used to kill a Chicago cop?, Milwaukee Journal Sentinel
(Mar. 1, 2018, 4:37 PM), https://www.jsonline.com/story/news/
crime/2018/03/01/how-did-gun-sold-wisconsin-end-up-being-usedkill-chicago-cop/385027002/.

10
their abuser would be able to access a firearm despite
a judicial order for surrender/prohibition. Domestic
violence homicides have a chilling effect on other survivors
accessing lifesaving protections.”24 Additionally, according
to a report by the Battered Women’s Justice Project,
“batterers who have access to guns may be more violent
than those who do not. Researchers have found that
simply having access to a firearm is associated with a
batterer’s use of one or more controlling behaviors versus
no controlling behaviors against his partner,” and that
domestic violence offenders who have access to firearms
commit more severe assaults than those who do not. 25 As
discussed, Armslist plays a direct role in creating this
chilling effect by facilitating abusers’ access to firearms
through designing its platform in a way that circumvents
background checks. (Compl. ¶¶ 49-54.)
II. BECAUSE A RMSLIST ’S CON DUCT IS AT
ISSUE, THE CDA DOES NOT SHIELD IT FROM
LIABILITY AND DOES NOT PREEMPT THE
STATE’S ENFORCEMENT OF ITS GUN LAWS
A.

The CDA Does Not Provide Safe Harbor for an
ICS’s Own Conduct

The CDA’s “Good Samaritan” safe harbor applies
narrowly to an ICS’s publishing activities of third-party
content: (1) where information is provided online by an
24. Statement from Sojourner Family Peace Center
(December 7, 2018) (on file with author).
25. April M. Zeoli, Non-Fatal Firearm Uses in Domestic
Violence, The Battered Women’s Justice Project (2017), https://
www.preventdvgunviolence.org/assets/nonfatal-gun-dv-zeoli-.pdf.

11
“information content provider” other than the ICS seeking
safe harbor, (2) such ICS will not be treated as the “publisher”
or “speaker” of that information. 47 U.S.C. § 230(c)(1); see
Barnes v. Yahoo!, Inc., 570 F.3d 1096, 1100, 1105 (9th Cir.
2009) (noting that the Act does not “declare[] a general
immunity from liability deriving from third-party
content” and that “[i]t is the language of the statute that
defines and enacts the concerns and aims of Congress; a
particular concern does not rewrite the language”).
However, the CDA does not prot ect an ICS
from liability for its own conduct in enabling user
activity, which includes developing tools for users
to engage in illegal transactions on its website. See
Doe v. Internet Brands, Inc., 824 F.3d 846, 853 (9th
Cir. 2016) (holding the safe harbor did not apply
“beyond [the CDA’s] narrow language and its purpose”
to immunize defendant from plaintiff ’s failure to
warn claim, which was based on defendant’s own
conduct, not its publication of third-party content);
City of Chicago v. StubHub!, Inc., 624 F.3d 363, 366 (7th
Cir. 2010) (“[47 U.S.C. § 230(c)(1)] limits who may be called
the publisher of information that appears online. That
might matter to liability for defamation, obscenity, or
copyright infringement. But [for] Chicago’s amusement
tax . . . [47 U.S.C. §] 230(c) is irrelevant.”).
As one federal Court of Appeals has noted, an
ICS that “helps to develop unlawful content” is not
protected by the CDA “if it contributes materially
to the alleged illegality of [its users’] conduct.”
Fair Hous. Council of San Fer nando Valley v.
Roommates.com, LLC, 521 F.3d 1157, 1168 (9th Cir. 2008);
id. at 1164 (noting that “[t]he [CDA] was not meant to
create a lawless no-man’s-land on the Internet”).

12
In Roommates.com, the Ninth Circuit found that
the CDA did not immunize an ICS which “match[ed]
people renting out spare rooms with people looking for a
place to live” from liability for violating federal housing
discrimination law because it “designed its website
registration process around” questions and answer choices
relating to users’ sex, family status and sexual orientation.
Id. at 1161, 1164. The court found that if an ICS actively
designs its website in a way that facilitates its users’
circumvention of the law, it materially contributes to that
illegal conduct even if a user produces the content at issue. See
id. at 1172. In J.S. v. Village Voice Media Holdings,
L.L.C., 359 P.3d 714 (Wash. 2015) minors featured
in advertisements for sexual services on Backpage.
com alleged that the website’s operators knowingly
developed posting guidelines and rules that induced child
prostitution. Id. at 715-16. Affirming the lower court’s
denial of motion to dismiss under 47 U.S.C. § 230, the
Washington Supreme Court held the plaintiffs adequately
alleged that Backpage’s conduct went beyond publishing
when it “intentionally developed its website to require
information that allows and encourages . . . illegal trade to
occur through its website, including the illegal trafficking
of underage girls.” Id. at 718 (alteration in original).
Armslist cannot escape liability through the CDA
safe harbor—at least not at the pleading stage—because
Daniel alleged that Armslist actively designed its website
in a way that facilitates illegal gun sales to individuals who
are prohibited from purchasing firearms, such as domestic
abusers. (Compl. ¶¶ 49-54.) As Daniel alleges, Armslist
was developed to fill a vacuum left by general marketplaces
like eBay and Craigslist that stopped their online gun
sales due to the high prevalence of illegal purchases. (See

13
id. ¶¶ 45-48.) Where other ICSs saw the clear risk
of violating state law, A rmslist saw opportunity:
A r msl ist is a specia l i zed onl ine g un store that
purposefully takes advantage of the anonymity that the
Internet provides to facilitate unlawful gun sales. (See
id. ¶¶ 41-42, 49.) This is evidenced by specific decisions
that Armslist made, such as: (1) allowing buyers to search
for “private sellers” only (thereby avoiding background
checks); (2) permitting users not to register and
allowing buyers to identify unregistered sellers (thereby
encouraging anonymity); and (3) preventing users from
flagging illegal seller advertisements. (Id. ¶¶ 54/P-App.
94-95.)
In the same way that Roommates.com chose to
display subscribers’ discriminatory preferences for their
desired housing—which is not illegal in and of itself—to
help its users discriminate in violation of federal law, see
Roommates.com, 521 F.3d at 1165, Armslist displays this
information in order to help users circumvent federal and
state gun laws. This conduct violates Wisconsin law and
clearly transcends Armslist’s allegedly passive role as a
platform that merely hosts third-party content. Daniel
seeks to hold Armslist liable for this purposeful promotion
of unlawful gun purchases, and accordingly the CDA does
not apply.
B. An Overly Broad Interpretation of the CDA
Violates the Presumption Against Federal
Preemption
The CDA does not immunize ICSs generally from
state laws governing different fields. As this Court has
pointed out, a preemption clause in federal law must be

14
cast narrowly to avoid unduly impinging on state law.
Medtronic, Inc. v. Lohr, 518 U.S. 470, 485, 494 (1996).
To identify the domain of state law expressly preempted
by Cong ress, cour ts must apply a “presumption
against pre-emption” unless it is contrary to the “clear
and manifest purpose of Cong ress,” particularly
when Cong ress leg islates in a f ield traditionally
occupied by states. Id. (citation omitted); see also
Altria Grp., Inc. v. Good, 555 U.S. 70, 76 (2008) (noting
that “an express federal pre-emption clause … does not
immediately end the inquiry because the question of the
substance and scope of Congress’[s] displacement of state
law still remains”).
Indeed, the Ninth Circuit recently recognized that
the CDA cannot be interpreted so broadly that it prevents
state and local entities from enforcing their own laws. In
Homeaway.com, Inc. v. City of Santa Monica, 918 F.3d
676 (9th Cir. 2019), the Ninth Circuit found that the CDA
did not preempt Santa Monica’s enforcement of a local
ordinance requiring Airbnb and Homeaway to crossreference booking requests with properties licensed and
listed on the City’s registry, noting that “the CDA does
not provide internet companies with a one-size-fits-all
body of law . . . [they] must also comply with any number
of local regulations concerning, for example, employment,
tax, or zoning.” Id. at 683. Accordingly, the scope of federal
preemption of state law should be construed narrowly
unless Congress has expressly required otherwise.
Here, Daniel seeks to enforce Wisconsin law against
Armslist for circumventing state laws that prohibit the
sale of guns to domestic abusers. By broadly construing
the CDA to preempt Daniel’s state law claim, the

15
Wisconsin Supreme Court contravened the presumption
against federal preemption. This interpretation of the
CDA effectively prevents Wisconsin from enforcing
the law in the context of any online gun sale conducted
through virtual marketplaces like Armslist because it
would permit website operators to assist users to engage
in illegal sales without incurring any liability. This violates
both the language and purpose of the CDA’s preemption
clause. See 47 U.S.C. § 230(e)(3).

16
CONCLUSION
The Wisconsin Supreme Court erred in finding that
Armslist is immune from liability for its role in the deaths
of Zina Haughton and her two co-workers, the injury of
four others, and Daniel’s horror of having her mother
gunned down in front of her. Armslist’s promotion of illicit
arms transactions involving known abusers must not be
immunized under the CDA simply because Armslist does
business on the Internet instead of in a dark alley behind
the courthouse. Accordingly, we respectfully urge the
Court to grant Yasmeen Daniel’s petition for certiorari.
Dated this 3rd day of September, 2019.
				Respectfully Submitted,
A nthony J. Dreyer
Counsel of Record
Hannah Marek
Shelli Gimelstein
Skadden, A rps, Slate,
Meagher & Flom LLP
Four Times Square
New York, New York 10036
(212) 735-3000
anthony.dreyer@skadden.com
Counsel for Amici Curiae
National Coalition Against
Domestic Violence, et al.

